A U D I T               M E M O R A N D U M                             N O . 3 4

                                                              January 22, 2004
To:            Margaret Carpenter
From:          Walter Stachnik
Re:            Discounted Airfare Tickets

We received an allegation that in 2003 the Travel Management Center (TMC) for
Headquarters inappropriately issued airline tickets with different prices for the same trip.
Since the General Service Administration (GSA) requires Federal travelers on official
business to use the contract carrier (which has a fixed price for each trip) unless a
specific exception applies, we compared the contract prices to the purchase price for 14
trips by SEC employees. We did not find any discrepancies between the cost of the
tickets and the contract price.
However, we learned that GSA now asks agencies to encourage their employees to
reserve their trips within required timeframes so that they are qualified to purchase
discounted tickets when the airlines offers them. The Federal Travel Regulations (FTR
301-10-107 (c)) allow the purchase of discount tickets from non-contract carriers if the
use of the ticket will result in a lower total trip cost to the Government.
The contract fares are often substantially higher than the discount ticket fares offered for
early reservations. For example, Delta offered a $228 fare on November 14, 2003 for a
flight between Washington and Atlanta on December 12, 2003. The corresponding
contract fare was $580, a difference of $352.
The discount fares are generally more restrictive than the contract fares, and changes to
the reservation may occasionally increase costs. Nevertheless, GSA believes that
cumulative saving on discount tickets will more than offset these occasional costs.

        Recommendation A
        The Office of Financial Management (OFM) should issue a memorandum telling
        employees to make their travel arrangements through their TMC within required
        time frames to qualify for any available discounted tickets the airlines offer. The
        memorandum should explain that this procedure would save money.

        Recommendation B
        OFM should instruct all Commission TMCs to use discount fares (rather than the
        contract fare) when appropriate. OFM should confirm that the TMCs are
        following this procedure.
